CERTIFICATE OF SERVICE
No. 19-937
The Cherokee Nation,
Petitioner,
v.
David Bernhardt, Secretary of the Interior, et al.,
Respondents.
I, Carter G. Phillips, do hereby certify that, on this sixth day of May, 2020, I
caused one copy and an electronic copy of the letter requesting that the Court delay
distribution of the petition for a writ of certiorari in the foregoing case to be served
by first class mail, postage prepaid, and by email, on the following parties:
NOEL J. FRANCISCO, Solicitor General
ERICA ROSS
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
SupremeCtBriefs@USDOJ.gov
Erica.Ross@usdoj.gov
(202) 514-2217
Counsel for David Bernhardt, et al.

KLINT AUSTIN COWAN
Fellers, Snider, Blankenship, Bailey &
Tippens, P.C.
100 N. Broadway, Suite 1700
Oklahoma City, OK 73102
kcowan@fellerssnider.com
(405) 232-0621
Counsel for United Keetoowah Band of
Cherokee Indians In Oklahoma
/s/ Carter G. Phillips
CARTER G. PHILLIPS
SIDLEY AUSTIN LLP
1501 K Street, N.W.
Washington, D.C. 20005
(202) 736-8000

